         Office of Inspector General




June 29, 2006

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

HENRY A. PANKEY
VICE PRESIDENT, EMERGENCY PREPAREDNESS

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

ELLIS A. BURGOYNE
ACTING VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:      Audit Report – Hurricane Katrina – The Effectiveness of the Postal Service
              Transportation and Logistics Network
              (Report Number NL-AR-06-006)

This report presents the results of our audit of the U.S. Postal Service response to
Hurricane Katrina (Project Number 06YG009NL000), focusing on Postal Service
transportation, infrastructure, and logistical support activity such as fuel management.
Our objectives were to determine whether Postal Service transportation and logistics
were effective during Hurricane Katrina and its immediate aftermath and whether Postal
Service officials protected Postal Service resources.

We concluded that the Postal Service proactively anticipated Hurricane Katrina and
responded rapidly to the storm’s impact on the Gulf Coast. As a result, the Postal
Service preserved funds and other resources and made the task of reconstituting the
Postal Service network less difficult. In this regard, we concluded:

   •   Timely action to suspend and terminate unneeded highway contract routes in the
       hurricane emergency zone saved the Postal Service about $2.8 million and made
       those funds available for emergency transportation requirements.

   •   Despite the diligent efforts of Postal Service supply management and contracting
       officials to protect federal resources, the Postal Service may have incurred more
       than $32.8 million in excess Hurricane Katrina-related fuel costs, driven by Gulf
       Coast oil industry disruption and resulting nationwide fuel price increases.

Our audit also concluded that since the Postal Service transportation and logistics
network is well established, the federal government can more effectively leverage the
network to mitigate human suffering and disruption during natural disasters or terrorist
attacks.

We recommend that Postal Service officials verify the termination of unneeded highway
contract routes; coordinate with appropriate federal authorities to better leverage Postal
Service capacity during future national emergencies; and revise or validate Integrated
Emergency Management Plans (IEMP) and other policies.

Management agreed with our recommendations. Management stated:

   •   Network Operations Management, working with the Southeast and Southwest
       Areas, verified the termination of unnecessary highway contract routes in regions
       affected by Hurricane Katrina, and the terminations resulted in cost savings.

   •   The Postal Service would coordinate with other appropriate federal authorities in
       accordance with the Emergency Support Function annex of the National
       Response Plan.

   •   The Office of Emergency Preparedness was in the process of updating the
       Postal Service’s IEMP, and logistics network changes would continue to be
       issued by the Transportation Field Support Office.

Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Dwight Young
    Steven R. Phelps
Hurricane Katrina – The Effectiveness of the Postal Service                          NL-AR-06-006
 Transportation and Logistics Network


                                          INTRODUCTION
 Background                      On August 25, 2005, Hurricane Katrina raced across
                                 southern Florida, moved into the Gulf of Mexico, and quickly
                                 intensified. According to the National Oceanic and
                                 Atmospheric Administration (NOAA), Hurricane Katrina
                                 developed sustained winds of 175 miles per hour with winds
                                 extending 120 miles from its center. The broad face of the
                                 storm struck an expansive area across the Gulf Coast
                                 region—from New Orleans in the west, across Mississippi in
                                 the center, and extending to Mobile, Alabama, in the east.
                                 After Hurricane Katrina made landfall early Monday
                                 morning, August 29, 2005, it became the most destructive
                                 hurricane ever to strike the United States, causing
                                 catastrophic damage to life, commerce, and infrastructure.
                                 Some preliminary estimates suggested economic damage
                                 could reach $200 billion.

   Hurricane Katrina hit the
     Gulf Coast at about
   7 a.m. Eastern Standard
        Time, Monday,
       August 29, 2005.

     This NOAA satellite
     image was made at
   about 1:00 p.m. Eastern
       Standard Time.

    Hurricane Katrina was
     the most destructive
    hurricane ever to strike
       the United States.

        Photograph 1.

      For all photograph
   credits see Appendix A.


                                 Because of its geography and topography, New Orleans
                                 continued to sustain damage after the storm’s impact. The
                                 city is located between Lake Pontchartrain to its north and
                                 the Mississippi River to its south, and is positioned lower in
                                 elevation than either of those bodies of water. Because
                                 much of New Orleans is below sea level and lacks natural
                                 drainage, its flood protection includes a series of pumps,
                                 canals, levees, and flood walls. That protection could not
                                 withstand Hurricane Katrina’s 15-foot storm surge. Levees
                                 failed in four locations along three canals, and vast lower
                                 elevations of New Orleans flooded, adding to an already
                                 catastrophic situation.
                                                      1
Hurricane Katrina – The Effectiveness of the Postal Service                         NL-AR-06-006
 Transportation and Logistics Network



                                 The federal government, particularly the Federal Emergency
                                 Management Agency (FEMA), was widely criticized for
                                 failing to rapidly respond to the hurricane, especially in
                                 New Orleans. The criticism, which frequently drew parallels
                                 between the effects of Hurricane Katrina and the potential
                                 effects of a terrorist attack, created public demand for
                                 governmental accountability.


   New Orleans, Louisiana,
     September 7, 2005.

         After the levees
    protecting New Orleans
   failed, almost 80 percent
    of the city flooded, with
   water up to 20 feet deep
         in some areas.

      Hurricane Katrina
   caused damage to life,
   property, and as shown
      in the picture, the
        transportation
        infrastructure.

        Photograph 2.



                                 As a result, on Thursday, September 15, 2005,
                                 Representative Tom Davis, Chairman of the House of
                                 Representatives Committee on Government Reform, asked
                                 the Department of Homeland Security to coordinate the
                                 work of federal inspectors general to determine whether
                                 federal hurricane relief, recovery, and reconstruction efforts
                                 were effective, and to ensure federal resources were
                                 protected.

 The Postal Service              The U.S. Postal Service has one of the largest
 Transportation and              transportation and logistics networks in the world, reaching
 Logistics Network               every community, town, and city in the United States. Its
                                 facilities are linked by a complex transportation system that
                                 depends on the nation’s air, rail, highway, and maritime
                                 infrastructure. Every day, an experienced team of
                                 transportation and logistical professionals manages an
                                 average flow of more than 560 million pieces of mail to and
                                 from addresses worldwide.

                                 During emergencies, these professionals control the
                                 network from the national operations center in Washington,
                                                      2
Hurricane Katrina – The Effectiveness of the Postal Service                          NL-AR-06-006
 Transportation and Logistics Network


                                 D.C.; transportation operations centers in the
                                 nine geographic Postal Service areas; and transportation
                                 offices in Postal Service facilities across the nation. The
                                 operations centers allow Postal Service network specialists
                                 and logisticians to monitor conditions such as severe
                                 weather and to track or adjust the flow of mail over air and
                                 surface transportation networks.

                                 Transportation costs the Postal Service more than
                                 $7.5 billion annually. Transportation activities can be
                                 separated into several major program areas, including




   Mail being loaded onto a
   commercial air carrier in
        Atlanta during
        January 2005.

   Air transportation costs
      the Postal Service
    $2.8 billion annually.

        Photograph 3.




                                 air transportation costing $2.8 billion annually; surface
                                 transportation costing $2.4 billion annually; logistical support
                                 costing more than $2.3 billion annually; plus other


       A Postal Service
        highway route
    contractor northbound
      on Interstate 95 in
       Georgia during
        January 2005.

    Surface transportation
   costs the Postal Service
     $2.4 billion annually.

        Photograph 4.




                                 activities. Postal Service transportation is supported by
                                 about 16,750 commercially contracted highway
                                                      3
Hurricane Katrina – The Effectiveness of the Postal Service                                       NL-AR-06-006
 Transportation and Logistics Network


                                  transportation routes; 214,000 Postal Service vehicles;
                                  more than 12,000 leased vehicles; transportation contracts
                                  with passenger and freight airlines; strategic alliances with
                                  FedEx and other commercial shipping operators; logistical
                                  support functions such as fuel procurement; and the mail
                                  transport equipment service center network.




      Coast Guard helicopter
      flying over flooded and
        damaged roadways,
           New Orleans,
         September 4, 2005.

          Photograph 5.




                                  During national emergencies such as Hurricane Katrina, the
                                  principal mission of the Postal Service is to continue the
                                  flow of mail and equipment through the Postal Service
                                  network. In anticipation of Hurricane Katrina, Postal Service
                                  officials activated essential staff at Postal Service
                                  Headquarters and in all geographic Postal Service areas.
                                  From their operations centers nationwide, Postal Service
                                  transportation and logistics managers monitored the storm
                                  and took actions described in Integrated Emergency
                                  Management Plans (IEMPs)1 and other policy documents to
                                  redirect transportation away from the Gulf Coast. Officials
                                  were immediately concerned about transportation
                                  infrastructure destruction, nationwide fuel shortages,
                                  diversion of surface and air transportation, and damage to
                                  Postal Service vehicles and equipment.

    Objectives, Scope,            We conducted this audit in response to direction from the
    and Methodology               President’s Council on Integrity and Efficiency to the
                                  inspector general community. Our audit focused on Postal
                                  Service transportation, infrastructure, and logistical support
                                  activities such as fuel management. Our objectives were to

1
 The adequacy of IEMPs will be addressed in the OIG’s overall report on the Postal Service’s emergency
preparedness for Hurricane Katrina.
                                                       4
Hurricane Katrina – The Effectiveness of the Postal Service                       NL-AR-06-006
 Transportation and Logistics Network


                                 determine whether Postal Service transportation and
                                 logistics were effective during Hurricane Katrina and its
                                 immediate aftermath, and whether Postal Service
                                 transportation managers and contracting officers protected
                                 Postal Service resources.

                                 In the immediate aftermath of Hurricane Katrina, OIG
                                 transportation auditors were on-site in New Orleans and at
                                 Postal Service operations centers at headquarters and in
                                 the Southeast, Southwest, Western, and Pacific Areas. At
                                 these locations, we met and talked to emergency
                                 management officials, law enforcement personnel, and
                                 Postal Service logistics managers, and we observed
                                 officials diverting mail transportation away from the
                                 hurricane emergency zone to alternate logistical staging
                                 points in Dallas, Beaumont, and Houston, Texas, and Baton
                                 Rouge, Louisiana. We also monitored fuel and
                                 infrastructure issues and obtained photographs. In addition,
                                 we inquired about Postal Service support to other federal
                                 departments under the National Response Plan (NRP).

                                 In the weeks that followed the storm, we revisited
                                 New Orleans and other areas affected by the storm;
                                 inspected the temporary logistical staging point in Baton
                                 Rouge; and interviewed officials from Postal Service
                                 Headquarters and all nine Postal Service areas. We met
                                 with the postmasters of New Orleans and Slidell, Louisiana;
                                 conducted site visits to temporary operations and
                                 devastated areas; and observed Postal Service security,
                                 recovery, and reconstitution operations.

                                 We examined applicable Postal Service policies,
                                 procedures, and other relevant documents, including
                                 actions described in the IEMPs, transportation contingency
                                 plans, lessons learned by the Postal Service, damage
                                 assessments, highway contract service changes, and
                                 emergency transportation contracts; and we reviewed print
                                 and broadcast media reports.

                                 We conducted work on this report from September 2005
                                 through June 2006 in accordance with generally accepted
                                 government auditing standards, and included such tests of
                                 internal controls as we considered necessary under the
                                 circumstances. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate.

                                                      5
Hurricane Katrina – The Effectiveness of the Postal Service                          NL-AR-06-006
 Transportation and Logistics Network


                                 During our audit, we examined Postal Service data,
                                 documentation, and other Postal Service records. Because
                                 of emergency conditions and time constraints, we did not
                                 audit or comprehensively validate the data. However, we
                                 did review the data for reasonableness and applied
                                 alternate procedures, including observation, physical
                                 inspection, and discussion with responsible officials.

 Prior Report                    Congressional Research Service Report, Postal Service for
 Coverage                        Katrina Survivors (Report Number RS22245, dated
                                 September 16, 2005), concluded that the Postal Service
                                 was well prepared for the aftermath of Hurricane Katrina.
                                 The report emphasized:

                                     •   The Postal Service had long experience with
                                         large-scale hurricanes and the challenges of
                                         reconstituting mail delivery.

                                     •   Hurricane Katrina posed a high-visibility test to the
                                         Postal Service’s capability, resilience, and reputation.

                                     •   As early as August 26, 2005, the Postal Service was
                                         anticipating Hurricane Katrina’s landfall on the Gulf
                                         Coast and was diverting mail from that region to
                                         minimize disruption.



   Devastated New Orleans
       neighborhood,
      October 25, 2005.
   During emergencies, the
   principal mission of the
      Postal Service is to
    restore mail service to
          the public.
    It will be years before
     this neighborhood is
       restored and mail
   service can be resumed.
        Photograph 6.




                                 Department of Transportation (DOT) Office of Inspector
                                 General (OIG) Report, Top Management Challenges
                                 (Report Number PT- 2006-007, dated November 15, 2005),
                                 identified the first DOT challenge as working with other
                                                      6
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network


                                 agencies to respond to disasters and address transportation
                                 security. The report explained that under the NRP, the DOT
                                 was the lead agency for transportation disaster response,
                                 and stated that in response to Hurricane Katrina, DOT had:

                                     •   Moved over 14,000 truckloads of relief supplies,
                                         including food, water, ice, and generators.

                                     •   Supported efforts to establish command and control
                                         facilities.

                                     •   Worked to repair damaged transportation
                                         infrastructure.

                                     •   Transported people via air and surface transportation
                                         to safe locations across the country.



    Responding to national
     disasters is a “shared
      responsibility.” All
     federal agencies and
    departments, including
      the Postal Service,
        signed the NRP.
     Members of a FEMA
    search and rescue task
   force conducting rescue
          operations,
   New Orleans, August 31,
            2005.
        Photograph 7.




                                 The report concluded that terrorist attacks of September 11,
                                 2001, and the destruction in the Gulf Coast region caused
                                 by Hurricane Katrina, exposed the vulnerabilities of critical
                                 transportation infrastructure to catastrophic events. The
                                 report explained that responding to national disasters like
                                 Hurricane Katrina was a “shared responsibility,” and that
                                 32 federal agencies (including the Postal Service), as well
                                 as nonprofit groups, had signed the NRP agreeing to
                                 participate in a concerted response effort to aid areas
                                 affected by terrorist attack or other disasters of national
                                 significance. The report noted growing interdependency
                                 among federal agencies with regard to the U.S.
                                 transportation system security; stated that DOT had

                                                      7
Hurricane Katrina – The Effectiveness of the Postal Service                         NL-AR-06-006
 Transportation and Logistics Network


                                 responsibility for working with other agencies; cited previous
                                 agreements for cooperation in safely and efficiently
                                 transporting people and relief supplies; and called for a
                                 well defined, well-coordinated, interagency approach in
                                 preparing for, responding to, and recovering from
                                 devastating events.




                                                      8
Hurricane Katrina – The Effectiveness of the Postal Service                          NL-AR-06-006
 Transportation and Logistics Network


                                          AUDIT RESULTS

 Postal Service                  Postal Service transportation and logistics were effective
 Reaction to                     during hurricane relief, recovery, and reconstruction efforts.
 Hurricane Katrina               The Postal Service’s anticipation of and rapid response to
                                 the storm’s impact preserved funds and other resources,
                                 allowed those funds and resources to be put to other uses,
                                 and made the task of reconstituting the network less
                                 difficult.

                                 The Postal Service transportation and logistics network is
                                 well established, and Postal Service transportation
                                 managers, logisticians, and contracting officials are
                                 dedicated, experienced professionals. Therefore, the
                                 federal government can more effectively use the Postal
                                 Service transportation and logistics network than was done
                                 in the aftermath of Hurricane Katrina, to mitigate human
                                 suffering and disruption during natural disasters or terrorist
                                 attacks.

 Planning, Anticipation,         On August 26, 2005, 1 day after Hurricane Katrina moved
 and Immediate                   from the Atlantic Ocean, across Florida, and into the Gulf of
 Response                        Mexico — and 3 days before it hit the Gulf Coast — Postal
                                 Service officials anticipated the storm’s impact and
                                 instructed managers to redirect mail to minimize network
                                 disruption. Postal Service transportation network managers
                                 in the Southwest Area, which includes New Orleans,
                                 Louisiana; the Southeast Area, which includes Gulfport,
                                 Louisiana; Biloxi, Mississippi; and Mobile, Alabama; and
                                 other Postal Service areas nationwide, reacted quickly and
                                 diverted mail away from the affected region.


      Lone mailbox in a
          devastated
      Slidell, Louisiana,
       neighborhood,
      October 25, 2005.

    As early as August 26,
   2005, the Postal Service
   was diverting mail away
     from the Gulf Coast
      region to minimize
          disruption.

        Photograph 8.




                                                      9
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network



                                 Officials also took actions described in the IEMPs and other
                                 documents; established alternate logistical staging points in
                                 Houston, Dallas, Beaumont, and Baton Rouge; shifted
                                 transportation accordingly; and established emergency
                                 transportation where needed. OIG transportation auditors
                                 were on-site at network operations centers at headquarters
                                 and in the Southeast, Southwest, Pacific, and Western
                                 Areas. At those centers, we observed network managers
                                 working under stressful circumstances and monitoring
                                 rapidly changing conditions, including weather; flooding;
                                 damage to transportation infrastructure; potential fuel
                                 shortages; and the status of Postal Service vehicles,
                                 facilities, and equipment. We also observed network
                                 managers effectively diverting transportation away from the
                                 affected region, establishing emergency transportation,
                                 preserving Postal Service resources, and maintaining
                                 operational continuity.




   Damaged transportation
      infrastructure.

   Sections of Interstate 10
         across Lake
     Pontchartrain were
   destroyed by Hurricane
     Katrina’s water and
            wind,
     September 20, 2005.

        Photograph 9.




                                 Within 2 weeks of the storm, contracting officers in the
                                 Southwest and Southeast Areas had suspended payments
                                 and terminated unneeded highway contract routes in the
                                 New Orleans, Biloxi, Gulfport, and Mobile regions. This
                                 timely contract action saved the Postal Service about
                                 $2.8 million and made those funds available for emergency
                                 transportation requirements. (See Appendix B.)
                                 Emergency service is typically 17 to 25 percent more
                                 expensive than regularly scheduled transportation.

                                 Network operation procedures in the storm’s immediate
                                 aftermath were well organized, proactive, effective, and
                                                     10
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network


                                 timely. The actions of network operations managers and
                                 contracting officers preserved Postal Service resources
                                 while maintaining operational continuity and reconstituting
                                 network operations. The long workhours, dedication, and
                                 professionalism of network transportation managers,
                                 logisticians, and contracting officials — particularly in the
                                 Southeast and Southwest Areas — are also worthy of note.

 Recommendation                  We recommend the vice president, Network Operations
                                 Management, in coordination with the vice president,
                                 Southeast and acting vice president, Southwest Area
                                 Operations:

                                     1. Verify the termination of unneeded highway contract
                                        routes in the regions affected by Hurricane Katrina.

 Management’s                    Management agreed with our recommendation.
 Comments                        Management stated that Network Operations Management,
                                 working with the Southeast and Southwest Areas, verified
                                 the termination of unnecessary highway contract routes in
                                 regions affected by Hurricane Katrina and that terminations
                                 resulted in cost savings. Management’s comments, in their
                                 entirety, are included in Appendix C.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation. Management’s actions taken or planned
 Comments                        should correct the issues identified in the finding.




                                                     11
Hurricane Katrina – The Effectiveness of the Postal Service                          NL-AR-06-006
 Transportation and Logistics Network




 Federal Emergency               On February 28, 2003, President Bush directed the
 Response Under the              Secretary of Homeland Security to:
 National Response
 Plan                                •   Develop an NRP to prepare for, respond to, and
                                         recover from domestic incidents, including major
                                         disasters, terrorist attacks, and other emergencies.

                                     •   Coordinate all federal departments and agencies,
                                         including the Postal Service, to prepare for, respond
                                         to, and recover from major disasters, terrorist attacks,
                                         and other emergencies within the U.S.

                                 In December 2004, the Secretary of Homeland Security and
                                 heads of all federal departments and agencies, including the
                                 Postmaster General, signed the NRP.

                                 The mission of the Postal Service during emergencies is to
                                 continue or restore mail service to the public, and during
                                 emergencies, Postal Service resources are directed
                                 primarily toward that essential mission. However, when




    Fishing boats blocking
    Highway 23 in Empire,
          Louisiana,
     September 12, 2005.

        Photograph 10.




                                 requested by the Department of Homeland Security or other
                                 appropriate authority, the Postal Service supports national
                                 disaster response and recovery efforts. The NRP specifies
                                 several Postal Service support functions. Under the NRP,
                                 the Postal Service could be asked to:

                                     •   Collect information about transportation infrastructure
                                         disruption and damage and report it to principal
                                         federal emergency response authorities.
                                                     12
Hurricane Katrina – The Effectiveness of the Postal Service                         NL-AR-06-006
 Transportation and Logistics Network



                                     •   Provide transportation not immediately required by
                                         the Postal Service for moving mail. The
                                         transportation would be used to move emergency
                                         resources such as food, water, supplies, and
                                         equipment in the disaster area.

                                     •   Assist in distributing and transporting medicine and
                                         pharmaceuticals to the general public.

                                     •   Coordinate with DOT and the Department of Justice
                                         to control the transportation of people, vehicles,
                                         supplies, and equipment.

                                 On September 3, 2005, in response to Hurricane Katrina,
                                 FEMA requested that the Postal Service deliver flyers to
                                 post office boxes and residences in the hurricane
                                 emergency zone. The flyers contained information on




     Letter Carrier Michael
     Bowin delivers mail to
   temporary mail boxes for
       residents of Pass
     Christian, Mississippi,
       October 22, 2005.

        Photograph 11.




                                 FEMA disaster assistance. The Postal Service coordinated
                                 daily with the Department of Homeland Security and other
                                 federal agencies, but received no other distribution or
                                 transportation support requests as part of the federal relief
                                 and recovery effort.

 Postal Service                  The NRP requires the Postal Service to plan support for
 Emergency Support               other federal agencies during incidents of national
 Capabilities                    significance. Officials said the Postal Service is well
                                 positioned to provide that support and could have provided
                                 additional support during Hurricane Katrina. The Postal
                                 Service has one of the largest transportation and logistics
                                 networks in the world, controlled from a nationwide system
                                 of operations centers by dedicated, professional
                                                     13
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network


                                 transportation managers, logisticians, and contracting
                                 officers.

                                 During our audit, we observed Postal Service logistics
                                 managers gathering information and reporting on weather
                                 and flooding conditions, fuel shortages, and damage to
                                 transportation infrastructure. Postal Service transportation
                                 officials routinely told us that federal disaster and relief
                                 managers could have made better use of the Postal Service
                                 network and expertise in transportation contracting, and
                                 explained that the network could have supported broader
                                 federal relief efforts. They also explained that Postal
                                 Service transportation operations centers could have


   The Gulf Coast highway
      infrastructure was
   devastated by Hurricane
            Katrina.
        This section of
      Interstate 90 near
     Gulfport connects
    Pass Christian to Bay
          St. Louis.
       October 4, 2005.
        Photograph 12.



                                 helped to monitor both the flow of relief supplies into the
                                 hurricane emergency zone and the flow of people out of the
                                 hurricane emergency zone.




   Heavy traffic evacuating
      New Orleans on
     September 3, 2005.

        Photograph 13.




                                 Postal Service officials also pointed out that federal
                                 emergency managers could have asked the Postal Service
                                 to provide contracting officers who could have applied their
                                 expertise, familiarity with local markets, and existing
                                                     14
Hurricane Katrina – The Effectiveness of the Postal Service                           NL-AR-06-006
 Transportation and Logistics Network


                                 relationships with suppliers to acquire aircraft, buses,
                                 tractor-trailers, drivers, and other transportation services.

 Postal Service                  Postal Service officials acknowledged that they expected
 Experience in                   the storm to drive up transportation costs, but they also felt
 Countering Inflated             federal managers may have been paying too much. The
 Costs in the Hurricane          officials emphasized that paying too much for equipment,
 Emergency Zone                  supplies, and services created a short-term, artificially high
                                 pricing environment, as well as shortages in transportation
                                 markets. For example, they explained that Postal Service
                                 contracting officers:

                                     •   Normally leased additional trailers to accommodate
                                         increased holiday mail volume, but this year, they
                                         were competing with FEMA and other federal
                                         agencies, FEMA was paying more than normal, and
                                         consequently, the Postal Service was experiencing
                                         higher prices and a shortage in the leased trailer
                                         market.

                                     •   Normally paid about $1.50 per mile for highway
                                         contract service, but they understood that other
                                         federal agencies were now paying as much as $5.00.
                                         As a result, they were forced to pay more than
                                         normal to compete in this short-term artificially
                                         inflated market.

                                 Postal Service transportation managers explained that if
                                 other agencies had asked them to provide operational and
                                 contracting expertise to acquire transportation equipment
                                 and services during Hurricane Katrina, they could have
                                 used their knowledge of local transportation markets and
                                 their existing relationships with suppliers to potentially save
                                 money for both the federal government and the Postal
                                 Service.

 Recommendation                  We recommend the vice president, Emergency
                                 Preparedness, in coordination with the vice president,
                                 Network Operations Management, and the vice president,
                                 Supply Management:

                                     2. As required by the National Response Plan,
                                        coordinate with the Department of Homeland
                                        Security and other appropriate federal authorities to
                                        explore the potential for making better use of Postal
                                        Service network capacity, logistical expertise, and
                                        other resources during national emergencies.
                                                     15
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network




 Management’s                    Management agreed with our recommendation.
 Comments                        Management stated they would coordinate with the
                                 appropriate federal authorities in accordance with the
                                 Emergency Support Function annex of the National
                                 Response Plan.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation. Management’s actions taken or planned
 Comments                        should correct the issues identified in the finding.




                                                     16
Hurricane Katrina – The Effectiveness of the Postal Service                        NL-AR-06-006
 Transportation and Logistics Network




 Nationwide Fuel                 After Hurricane Katrina, Postal Service transportation and
 Supply Disruption               supply management officials expressed concern about
                                 damage to the Gulf Coast fuel industry and infrastructure
                                 and potential fuel shortages nationwide. Officials also
                                 expressed concern about rising fuel prices, but said
                                 shortages were more critical. They explained that if fuel
                                 was unavailable, such shortages would have a serious
                                 impact on Postal Service transportation and the ability of the
                                 Postal Service to move mail.


    Chalmette, Louisiana,
     September 16, 2005.
      Hurricane Katrina
     devastated the Gulf
      Coast oil industry.

    Here a massive oil spill
   resulted when an oil tank
      was forced from its
      foundation by the
    hurricane storm surge.

        Photograph 14.




                                 The U.S. Strategic Petroleum Reserve is administered by
                                 the U.S. Department of Energy and is the largest stockpile
                                 of government-owned emergency crude oil in the world. It
                                 was established to provide the federal government with a
                                 response option when disruption in commercial oil supplies
                                 threatens the U.S. economy. It has been used only
                                 twice under these conditions: first in 1991, at the beginning
                                 of Operation Desert Storm; and second, on September 2,
                                 2005, in response to Hurricane Katrina. The Hurricane
                                 Katrina-related authorization from the Strategic Petroleum
                                 Reserve, to draw down 30 million barrels of crude oil to
                                 replace oil from the disrupted Gulf Coast oil industry,
                                 mitigated shortages in oil industry markets.

                                 During our audit, we carefully monitored nationwide fuel
                                 supplies. Although sporadic shortages affected airports
                                 nationwide in early September, and short-term shortages
                                 affected the Gulf Coast region during evacuations following
                                 Hurricanes Katrina and Rita, major nationwide shortages did
                                 not develop, as some officials feared.

                                                     17
Hurricane Katrina – The Effectiveness of the Postal Service                                          NL-AR-06-006
 Transportation and Logistics Network


                                 Although significant fuel shortages did not materialize,
                                 Hurricane Katrina disrupted the Gulf Coast fuel industry and
                                 created a significant nationwide spike in fuel prices. For
                                 example, as indicated by the following chart, on August 29,
                                 2005, the day Hurricane Katrina hit the Gulf Coast, the
                                 nationwide average price for diesel fuel was $2.59 per
                                 gallon. However, after the hurricane struck, diesel fuel
                                 prices spiked to more than $3.10 per gallon and did not
                                 return to pre-Katrina levels for over 11 weeks. Based on
                                 average diesel fuel usage during the 11-week nationwide
                                 spike in diesel fuel prices, the Postal Service might have
                                 incurred more than $20.4 million in Hurricane Katrina-
                                 related fuel costs.

                                                 Diesel Fuel Retail Price - US Average
                                  $          (Source: Energy Information Administration, Department of Energy)

                                 3.20
                                 3.00     Hurricane Katrina                           Diesel
                                           August 29, 2005                         Price Spike
                                 2.80
                                                                                   $20.4 Million
                                 2.60
                                 2.40
                                                                       Pre-Katrina Price - $2.59
                                 2.20
                                                                         November 14, 2005
                                 2.00

                                June 20, 2005                 August 29, 2005               November 14, 2005


                                 As shown below, a similar analysis of all transportation-
                                 related fuel prices, including diesel, gasoline, and aviation,
                                 suggests the Postal Service might have incurred a total of
                                 more than $32.8 million in Hurricane Katrina related fuel
                                 costs.

                                          Hurricane Katrina-Related Fuel Costs (in millions)
                                                           Diesel Fuel           $20.4
                                                           Gasoline                 4.7
                                                           Aviation Fuel            7.7
                                                           Total                 $32.8

                                 Postal Service transportation and supply managers have
                                 little control over disruption to national oil inventories
                                 created by events as catastrophic as Hurricane Katrina.
                                 Consequently, we have no fuel-related recommendations
                                 for Postal Service officials at this time.



                                                      18
Hurricane Katrina – The Effectiveness of the Postal Service                       NL-AR-06-006
 Transportation and Logistics Network




 Postal Service                  Officials at headquarters and in the various Postal Service
 Emergency                       areas recognized that during the hurricane emergency,
 Communications                  Postal Service communications could have been improved.
                                 They explained that a problem existed with multiple chains
                                 of communication and authority. For example, they told us
                                 that for routine daily business, Human Resources, the Law
                                 Department, Government Relations, Finance, Operations,
                                 and Emergency Preparedness all have their own separate
                                 chains of communication. The officials pointed out that
                                 during the Hurricane Katrina emergency, managers at all
                                 levels used routine, nonemergency communication, and as
                                 a result, emergency information or requests for assistance
                                 were sometimes inconsistently disseminated, fragmented,
                                 or duplicated. The officials explained that the situation
                                 caused confusion and was exacerbated because the Postal
                                 Service did not have a clear policy differentiating between
                                 routine daily administration and critical operational
                                 communication during an emergency.

                                 These officials suggested that the Postal Service system of
                                 operations centers might be used to mitigate the problem
                                 and explained that they were making improvements. For
                                 example, they explained that under routine operating
                                 conditions, operations centers were normally staffed by
                                 transportation managers and network specialists, but that
                                 during emergencies, operations centers could be reinforced
                                 with personnel from all disciplines. They emphasized that if
                                 during emergencies, operations centers were reinforced and
                                 emergency information was routed through them, the Postal
                                 Service could enhance communications and reduce
                                 confusion.

 Recommendations                 We recommend the vice president, Emergency
                                 Preparedness, in coordination with the vice president,
                                 Network Operations Management:

                                     3. Revise and validate Integrated Emergency
                                        Management Plans and other policies or procedures
                                        to facilitate communication during future national
                                        emergencies, and consider reinforcing the existing
                                        system of transportation centers.

 Management’s                    Management agreed with our recommendation. They
 Comments                        stated the Office of Emergency Preparedness was in the
                                 process of updating the Postal Service’s IEMP and the
                                                     19
Hurricane Katrina – The Effectiveness of the Postal Service                       NL-AR-06-006
 Transportation and Logistics Network


                                 Transportation Field Support Office would continue to issue
                                 logistics network changes.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation. Management’s actions taken or planned
 Comments                        should correct the issues identified in the finding.




                                                     20
Hurricane Katrina – The Effectiveness of the Postal Service                      NL-AR-06-006
 Transportation and Logistics Network


                                             APPENDIX A

                                   PHOTOGRAPH CREDITS

Photograph
 Number                           Description                           Credit and Date
                  NOAA satellite image of Hurricane Katrina        National Oceanic and
       1          at about 1 p.m. Eastern Standard Time,           Atmospheric
                  August 29, 2005.                                 Administration
                                                                   August 29, 2005

                  After the levees protecting New Orleans          FEMA
       2          failed, almost 80 percent of the city flooded,   September 7, 2005
                  and water was up to 20 feet deep in some
                  areas.

                  Mail being loaded onto a commercial air          Postal Service OIG
       3          carrier in Atlanta.                              January 2005

                  A Postal Service highway route contractor        Postal Service OIG
       4          traveling northbound on Interstate 95 in         January 2005
                  Georgia.

                  Coast Guard helicopter flying over the           FEMA
       5          flooded and damaged roadways in                  September 4, 2005
                  New Orleans.

                  Devastated New Orleans neighborhood.             Postal Service OIG
       6                                                           October 25, 2005

                  Members of the FEMA search and rescue            FEMA
       7          task force are conducting rescue operations      August 31, 2005
                  in New Orleans.

                  Lone mailbox in a devastated                     Postal Service OIG
       8          Slidell, Louisiana, neighborhood.                October 25, 2005

                  Sections of Interstate 10 across Lake            FEMA
       9          Pontchartrain were destroyed by Hurricane        September 20, 2005
                  Katrina’s waters and wind.

                  Fishing boats blocking Highway 23 in             FEMA
      10          Empire, Louisiana.                               September 12, 2005



                                                     21
Hurricane Katrina – The Effectiveness of the Postal Service                     NL-AR-06-006
 Transportation and Logistics Network



Photograph
 Number                              Description                           Credit

                  Letter carrier Michael Bowin delivers mail to   FEMA
      11          temporary mail boxes for residents of Pass      October 22, 2005
                  Christian, Mississippi.

                  Section of Interstate 90 near Gulfport          FEMA
      12          connects Pass Christian to Bay St. Louis.       October 4, 2005.
                  It was devastated by Hurricane Katrina.

                  Heavy traffic evacuating New Orleans.           FEMA
      13                                                          September 3, 2005.

                  A massive oil spill resulted when an oil tank   FEMA
      14          was forced from its foundation by the           September 16, 2005
                  hurricane storm surge in Chalmette,
                  Louisiana.




                                                     22
Hurricane Katrina – The Effectiveness of the Postal Service                                     NL-AR-06-006
 Transportation and Logistics Network


                                             APPENDIX B

                 HIGHWAY CONTRACT ROUTE (HCR) SAVINGS
                  FROM SOUTHWEST AND SOUTHEAST AREA
                CONTRACT TERMINATIONS AND SUSPENSIONS
                                           Date of
                                          Contract                                   Months
                                         Termination        Annual       Monthly     Used to       Contract
  HCR        Contract       Contract         or             Contract     Contract   Calculate       Term
 Number      Start Date     End Date     Suspension          Costs        Costs     Savings        Savings

 SOUTHWEST AREA CONTRACT ACTIONS
  70000       7/1/2003       6/30/2007     9/2/2005            $47,736     $3,978      22            $88,312
  70014       7/1/2005       6/30/2009    10/29/2005          $128,639    $10,720      45           $478,822
  70032       7/1/2002       6/30/2006     9/2/2005            $63,853     $5,321      10            $53,388
  70033       7/1/2003       6/30/2007     9/2/2005            $80,583     $6,715      22           $149,078
  70034       7/1/2003       6/30/2006    12/31/2005           $50,802     $4,233       6            $25,542
  70035       7/1/2002       6/30/2006     9/2/2005            $61,408     $5,117      10            $51,344
  70037       7/1/2005       6/30/2009    12/31/2005           $37,307     $3,109      43           $132,335
  70038       7/1/2005       6/30/2009    12/31/2005           $87,021     $7,252      43           $308,682
  70060       4/17/2004      6/30/2007     9/2/2005            $25,489     $2,124       2             $4,190
  70062       7/1/2003       6/30/2007     9/2/2005            $32,653     $2,721       2             $4,026
  70064       7/1/2003       6/30/2007     9/2/2005            $28,274     $2,356       2             $3,746
  70360       7/1/2003      6/30/2007      9/2/2005            $25,360     $2,113       1             $1,371
  700A3       7/1/2005       6/30/2009     9/2/2005            $22,113     $1,843       2             $3,686
  700A4       8/10/2002      6/30/2006     9/2/2005            $19,098     $1,592       2             $3,183
  700A5       2/19/2005     12/17/2005     9/2/2005            $32,624     $2,719       4             $9,606
  700A6       2/19/2005     12/17/2005     9/2/2005            $39,128     $3,261       4            $11,521
  700AD       5/14/2005     12/31/2005     9/2/2005            $35,500     $2,958       4            $11,833
  700L2       7/1/2002      6/30/2006      9/2/2005            $60,431     $5,036      10            $50,527
  700L4       7/1/2003       6/30/2007     9/2/2005            $66,420     $5,535      22           $122,876
  700L5       7/1/2003       6/30/2007     9/2/2005            $59,389     $4,949      22           $109,869
  700L6       7/1/2003      6/30/2007      9/2/2005            $43,718     $3,643      22            $80,879
  700L8       7/1/2003       6/30/2007     9/2/2005           $123,843    $10,320      22           $229,110
  700L9       7/1/2003       6/30/2007     9/2/2005            $58,819     $4,902      22           $108,815
  700M1       7/1/2003       6/30/2007     9/2/2005           $116,403     $9,700      22           $215,345
  703A0       7/1/2004       6/30/2008     9/2/2005            $36,254     $3,021      34           $103,927
  703A2       7/1/2004      6/30/2008      9/2/2005            $20,049     $1,671      34            $57,474
  703A4       4/16/2005     12/17/2005    12/17/2005           $20,000     $1,667       8            $13,611
  703A6       6/11/2005     12/17/2005     9/2/2005            $54,240     $4,520       6            $28,476
  704B3      12/28/2002      6/30/2006     9/2/2005            $32,405     $2,700      10            $27,094
  705AD       7/30/2005     12/16/2005    8/28/2005            $74,500     $6,208       4            $22,764

 Southwest Area Totals                                      $1,584,058   $132,005                  $2,510,151

 SOUTHEAST AREA CONTRACT ACTIONS
  Numerous HCR Routes*                                                                              $298,071


 TOTAL - Southwest and Southeast Areas                                                            $2,808,222

 * Southeast Area savings represent highway contract payment recoupment for interrupted service. Payments
 were recouped as service was interrupted and suspended on an as-needed basis. The amounts recouped are the
 actual daily rate charged for the service. Since 155 contracts were involved and the total recovery was
 $298,071 (ranging from $34 to $41,004), we are reporting only the total amount recouped.



                                                       23
Hurricane Katrina – The Effectiveness of the Postal Service   NL-AR-06-006
 Transportation and Logistics Network


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                     24
Hurricane Katrina – The Effectiveness of the Postal Service   NL-AR-06-006
 Transportation and Logistics Network




                                                     25
